Defense Hotline Review       September 21, 2007

             TRICARE Actions on a
        Request for Equitable Adjustment
           Report No. D-2007-6-008
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of Defense
  Inspector General at http://www.dodig.mil/audit/reports or contact the Assistant Inspector
  General for Audit Policy and Oversight at (703) 604-8760 (DSN 664-8760) or fax (703)
  604-9808.

  Suggestions for Future Reviews

  To suggest ideas for or to request future reviews, contact the Office of the Assistant
  Inspector General for Audit Policy and Oversight at (703) 604-8760 (DSN 664-8760) or
  fax (703) 604-9808. Ideas and requests can also be mailed to:


                                         OAIG-APO
                           Department of Defense Inspector General
                             400 Army Navy Drive (Room 1015)
                                 Arlington, VA 22202-4704




Acronyms

DCAA          Defense Contract Audit Agency
FAR           Federal Acquisition Regulation
IG            Inspector General
REA           Request for Equitable Adjustment
                                    INSPECTOR GENERAL
                                   DEPARTMENT OF DEFENSE
                                    400 ARMY NAVY DR IV E
                               ARLIN GTON , VIRG INIA 22202- 4704




                                                                            September 21, 2007

MEMORANDUM FOR DIRECTOR, TRICARE MANAGEMENT ACTIVITY

SUBJECT: Report on Hotline Allegations Conceming TRICARE's Actions on a Request for
         Equitable Adjustment (Report No. 0-2007-6-008)

        We are providing this report for your information and use. We performed this review in
response to a Defense Hotline complaint. We considered management comments on a draft of
this report in preparing the final report.

       Comments on the draft of this report conformed to the requirements of 000
Directive 7650.3. Therefore, no additional comments are required.

      We appreciate the courtesies extended to the staff. Questions should be directed to
Ms. Meredith Long-Morin at (703) 604-8739 (OSN 664-8739), meredith.morin@dodig.mil.


                                                \,, ~ c..~          \~~
                                                 W;;l~~Berry              ~
                                                 Acting Assistant Inspector General
                                                  Audit Policy and Oversight
Table of Contents
Results in Brief                                                  i

Introduction
   Objective                                                      1
   Background                                                     1

Findings
   A. Inaccurate Reporting of Questioned Costs Sustained          2
         Requirement for Reporting the Status of Audit Reports    2
         Reporting on the Humana Equitable Adjustment             3
         Reporting on the TriWest Equitable Adjustment            3
         TRICARE Procedures                                       3

   B. Failure To Prepare Negotiation Memorandums                  4
          Negotiation Memorandum Requirements                     4
          Negotiation Memorandums for the Humana and TriWest
           Equitable Adjustments                                 4
          DCAA Audit Reports                                     5
          Consultant Review                                      5
          Legal Review                                           5
          Board of Review                                        6
          DCAA Request for Negotiation Memorandum                6
          Recommendations and Management Comments                7

Appendixes
   A. Scope and Methodology                                       8
   B. Report Distribution                                         9

Management Comments
   Deputy Director TRICARE Management Activity Comments          10
                Hotline Allegations Concerning TRICARE’s
                         Actions on a Request for
                            Equitable Adjustment
                                                     determination and paid out millions in
       Results In Brief                              interim payments.


What We Did                                          What We Recommend
                                                     TRICARE should review the last 3 years of
We reviewed a Defense Hotline allegation
                                                     contract modifications that exceed $500,000
that (1) TRICARE “knowingly” and
                                                     to verify that the contract files include
“falsely” reported to the DoD Inspector
                                                     adequate negotiation memorandums and all
General that the TRICARE contracting
                                                     required approvals. In addition, TRICARE
officer had sustained $21 million in costs
                                                     should evaluate its current controls for
questioned by the Defense Contract Audit
                                                     ensuring that contracting officers obtain the
Agency in its audit of a request for equitable
                                                     required approvals before taking a pricing
adjustment and that (2) the contracting
                                                     action. TRICARE needs to take appropriate
officer did not prepare a negotiation
                                                     corrective actions based on the results of
memorandum covering the actions he took
                                                     these reviews and furnish a copy of the
on the $21 million in costs questioned by the
                                                     results to the DoD Inspector General.
Defense Contract Audit Agency.

What We Found                                        Management Comments
                                                     In responding to the June 19, 2007 draft of
We did not substantiate the first allegation,
                                                     this report, the TRICARE Deputy Director
but we substantiated the second. TRICARE
                                                     concurred with the recommendations.
inaccurately    reported    the     sustained
questioned costs, but our review disclosed
no evidence that TRICARE knowingly
overstated them in its reporting to the DoD
Inspector General. We substantiated that the
contracting officer failed to prepare
negotiation memorandums for two equitable
adjustments worth a combined $160 million.
As a result, there is no written explanation
concerning the actions the contracting
officer took on the Defense Contract Audit
Agency questioned costs, or on the
recommendations       obtained     from     a
consulting firm and the TRICARE Assistant
General Counsel. The contracting officer
also failed to (1) respond to a Defense
Contract Audit Agency request for a copy of
the negotiation memorandum, (2) obtain a                      United States Department of Defense
required Board of Review approval; and                            Office of Inspector General
                                                              Project No. D2005-DIP0AI-0226.000
(3) obtain a required legal review until                           Report No. D-2007-6-008
19 months after he issued his entitlement                             September 21, 2007

                                                 i
                                   Introduction
Objective
We conducted this review to determine the validity of allegations received by the DoD Hotline
concerning actions by the TRICARE Management Activity on a request for equitable adjustment
(REA) submitted by Humana Military Healthcare Services, Inc. (Humana). We also reviewed
the actions that TRICARE took on a similar REA submitted by TriWest, Inc., which was not a
part of the DoD Hotline allegations. See Appendix A for details regarding our scope and
methodology.

Background
TRICARE Management Activity (TRICARE). The mission of TRICARE is to manage the
DoD medical and dental programs for current and retired members of the uniformed services,
their dependents, and other beneficiaries. TRICARE delivers healthcare services through
regional healthcare contractors, including Humana and TriWest. The TRICARE Acquisition
Management and Support Directorate, located in Aurora, Colorado, is responsible for awarding
and administering regional healthcare contracts for TRICARE.

Humana REA. Under Contract No. MDA906-96-C-0002, Humana provided healthcare
services to eligible beneficiaries in TRICARE Regions 3 and 4. In March 1997, Humana and its
subcontractors—Blue Cross and Blue Shield of South Carolina, and Managed Prescription
Service—submitted a $61 million REA. Humana requested the equitable adjustment based on its
projection of receiving significantly more healthcare claims than the Government had estimated
in its Request for Proposal. Between 1998 and 2000, Humana and its subcontractors submitted
several revised REAs, ranging from $89 million to $96 million.

TriWest REA. In September 1999, TRICARE received a similar $79 million REA from
TriWest, Inc., which provided healthcare services in TRICARE Regions 7 and 8 under Contract
No. MDA906-96-C-0004. Like Humana, TriWest requested an equitable adjustment based on
its projection of significantly higher healthcare claims than the Government had estimated in its
Request for Proposal.

Entitlement Determination. In November 1997, 8 months after receiving the first Humana
REA, the TRICARE contracting officer issued a determination that the contractor was entitled to
an equitable adjustment for the increase in the volume of healthcare claims. Although the
contracts were firm-fixed-price, the contracting officer concluded that the contractor should be
compensated through an equitable adjustment because he believed the Government’s Request for
Proposal was vague and ambiguous. While the entitlement determination did not establish the
final amount of equitable adjustment, it was used as the basis for providing interim payments to
the contractor, pending a final negotiated settlement.




                                                1
Defense Contract Audit Agency (DCAA). DCAA provides audit and financial advisory
services to all DoD Components, including TRICARE. DCAA issues audit reports resulting
from several types of audits of Government contractor proposals and contracts. As requested by
TRICARE, DCAA audited the Humana and TriWest REAs. In Audit Report
No. 1621-97K17200003, October 20, 1998, DCAA questioned $21 million of the $96 million
Humana REA; DCAA later reduced the questioned amount to $16 million after reviewing one of
the revised Humana REAs for $90.6 million. In Audit Report No. 3901-1998Al7200003-S1,
November 3, 1999, DCAA questioned $14 million of the $79 million TriWest REA.

Contract Modification. In August 2000, Humana submitted its final REA for $89 million. In
February 2001, TRICARE accepted it and executed a contract modification that increased the
contract value by $89 million. TRICARE also executed a contract modification that increased
the TriWest contract value by $71 million.



                                              Findings
A. Inaccurate Reporting of Questioned Costs
   Sustained

             We did not substantiate the allegation that, in the information it submitted to the DoD
             Inspector General (IG), TRICARE “knowingly” and “falsely” reported sustaining 1
             the entire $21 million in DCAA-questioned costs associated with the Humana REA.
             Although TRICARE inaccurately reported the sustained costs associated with the
             Humana REA, our review disclosed no evidence that TRICARE knowingly
             overstated the sustained questioned costs in reporting them to DoD IG. TRICARE
             has since revised its procedures for reporting audit information and now requires
             approval of documentation supporting the resolution and disposition of audit reports.
             These actions should help ensure the accuracy of future reporting to DoD IG.

             Requirement for Reporting the Status of Audit Reports. DoD Directive 7640.2,
             “Policy for Follow-up on Contract Audit Reports,” dated February 12, 1988,
             prescribes DoD policy and procedures for the resolution and disposition of contract
             audit reports. Resolution of an audit report is achieved when the contracting officer
             determines a course of action on the audit findings, and disposition is generally
             achieved when the contracting officer carries out the action either through a
             negotiated settlement or a final decision under the Disputes Clause.

             DoD Directive 7640.2 requires that all DoD Components, including TRICARE,
             report on the status of resolution and disposition actions to DoD IG semiannually.

1
 A contracting officer sustains questioned costs by upholding the determination of the auditor (in this case, DCAA)
and not reimbursing the contractor for the questioned costs.



                                                         2
For dispositioned audits, Components must include the amount of questioned costs
they sustained. DoD IG includes a summary of the status reports for all DoD
Components in its Semiannual Report to Congress.

Reporting on the Humana Equitable Adjustment. TRICARE did not accurately
report the amount of questioned costs it sustained on the Humana equitable
adjustment. TRICARE reported to DoD IG that the contracting officer had sustained
the entire $21 million questioned by DCAA in Audit Report No. 1621-97K17200003,
October 20, 1998. Although we could not determine the exact amount of sustained
questioned costs because of the lack of a negotiation memorandum, we did determine
that the maximum amount the contracting officer could have sustained was
$1.6 million, which is the difference between the $90.6 million Humana REA last
audited by DCAA and the $89 million negotiated agreement. As a result, TRICARE
overstated the sustained questioned costs by a minimum of $19.4 million
($21 million less $1.6 million) in its reporting to DoD IG.

However, our review of the contract file, and interviews of current and former
TRICARE employees, did not disclose any evidence that TRICARE had “knowingly”
overstated the sustained questioned costs reported to DoD IG.

Reporting on the TriWest Equitable Adjustment. TRICARE could have
accurately reported the amount of questioned costs associated with the TriWest
equitable adjustment that it sustained, but the failure of the contracting officer to
prepare a negotiation memorandum prevented us from verifying the accuracy of the
reporting. TRICARE reported to DoD IG that the contracting officer had sustained
$8.3 million of the $14 million that DCAA questioned in Audit Report No. 3901-
1998Al7200003-S1, which is the maximum amount that the contracting officer could
have sustained (the $78.9 million TriWest REA less the $70.6 million negotiated
agreement).

TRICARE Procedures. In 2002, TRICARE added a procedure that requires
contracting officers to provide the TRICARE Contract Audit Follow-Up Monitor
with documentation supporting the disposition of all audit reports. In Report
No. D-2007-6-002, October 11, 2006, we also recommended that TRICARE
implement a process to test the adequacy of documentation supporting the disposition
of audit reports before reporting them as dispositioned. (See Recommendation 6.) In
a May 24, 2007, response, TRICARE stated that it had revised its procedures to
require approval of documentation supporting the resolution and disposition of audit
reports. If properly implemented, the revised procedures should help TRICARE
provide accurate audit information to DoD IG. DoD IG plans to review the revised
procedures and verify their implementation. Subject to the results of the DoD IG
review and verification, we have no new recommendation for this finding.




                                    3
B. Failure To Prepare Negotiation Memorandums
     We substantiated the allegation that the contracting officer did not prepare a
     negotiation memorandum for the $89 million Humana equitable adjustment. The
     same contracting officer also did not prepare a negotiation memorandum for the
     $71 million TriWest equitable adjustment. Both the Federal Acquisition Regulation
     (FAR) and DoD Directive 7640.2 require the preparation of a negotiation
     memorandum. The contracting officer received field pricing findings and
     recommendations from DCAA, a consulting firm, and a TRICARE Assistant General
     Counsel, but without the negotiation memorandum, there are no documents that
     adequately explain the extent to which the contracting officer considered the
     recommendations in the negotiated agreement. The contracting officer also
     improperly ignored a DCAA request for a copy of the negotiation memorandum;
     failed to obtain Board of Review approval that would have disclosed the absence of
     the negotiation memorandums; and did not obtain the required legal review of the
     equitable adjustments until 19 months after making his entitlement determination and
     paying millions of dollars in interim payments.

     Negotiation Memorandum Requirements. FAR 15.406-3(a) states that
     contracting officers shall document the principal elements of the negotiated
     agreement in the contract file. FAR 15.406-3(a)(7) requires that the negotiation
     memorandum document a summary of the field pricing assistance recommendations
     and the reasons for any pertinent variances from them. Paragraph 6.5 of DoD
     Directive 7640.2 requires contracting officers to prepare a memorandum covering the
     disposition of all audit reports.

     Negotiation Memorandums for the Humana and TriWest Equitable
     Adjustments. The TRICARE contract files for the Humana and TriWest equitable
     adjustments did not contain negotiation memorandums. As a result, the contract files
     have no written record that demonstrates the fairness or reasonableness of the
     $89 million negotiated agreement with Humana, or of the $71 million negotiated
     agreement with TriWest. We spoke to the contracting officer responsible for the
     Humana and TriWest REAs, who acknowledged that negotiation memorandums were
     either not prepared or lost. He stated that, at that time, he was starting a new position
     as Office Chief and apparently forgot to prepare the memorandums. In his current
     position as Office Chief, he supervises a team of 10 employees, including contracting
     officers and contract specialists. Judging from his actions during this time, we are
     concerned that his team may not be preparing negotiation memorandums in
     accordance with the FAR and DoD Directive 7640.2.

     The negotiation memorandum is a critical part of the contract file because it serves as
     the primary means of demonstrating the reasonableness of the negotiated price and
     compliance with applicable laws and regulations. It also serves to protect the
     Government’s interests in the event of future disputes.




                                           4
DCAA Audit Reports. Without negotiation memorandums, there is no explanation
as to why the contracting officer did not sustain at least $20.8 million in DCAA-
questioned costs, including $14.8 million and $6 million for the Humana and TriWest
REAs, respectively. The $14.8 million amount for the Humana REA is the difference
between the DCAA revised questioned costs of $16.4 million and the maximum
sustained questioned costs of $1.6 million. The $6 million amount for the TriWest
REA is the difference between the DCAA-questioned costs of $14.3 million and the
maximum sustained amount of $8.3 million. DCAA questioned the costs because the
Humana and TriWest REAs did not adequately demonstrate that the costs directly
resulted from the increase in healthcare claims.

Consultant Review. TRICARE hired Kennell and Associates, Inc., a healthcare
consulting firm, to review and provide comments on the Humana and TriWest REA
proposals. In August 1999, Kennell and Associates made several recommendations
for saving the Government between $35 million and $52 million of the $96 million
Humana REA proposal, and between $36 million and $44 million of the $79 million
TriWest REA proposal. The two most significant recommendations included
upholding the DCAA-questioned costs and making the contractor responsible for a
portion of the costs associated with the increase in healthcare claims. However, the
contract file does not indicate the extent to which the recommendations were
incorporated in the negotiated agreement.

Legal Review. In a June 14, 1999, memorandum to the contracting officer, an
Assistant General Counsel for TRICARE provided a legal opinion on the REAs.
Although the Assistant General Counsel concurred with the contracting officer’s
November 1997 entitlement determination, he expressed some of the same concerns
on the amount of entitlement as those reported by DCAA and the consulting firm.
The Assistant General Counsel stated that the contractor should bear some of the
costs associated with the increased volume in claims. In addition, the Assistant
General Counsel stated that some of the cost elements, such as system development
costs, did not appear to have a direct relationship to the increase in claims volume.
However, according to Humana’s final REA and the negotiated agreement, the
contracting officer reimbursed $3,446,145 of the $3,808,077 (90 percent) in proposed
system development costs. The contract file does not include a negotiation
memorandum or other documentation to explain the reasonableness of this action.

In addition, the contracting officer did not obtain the legal opinion until 19 months
after rendering his November 1997 entitlement determination and making interim
payments to the contractors. Between November 1997 and May 1999, TRICARE
paid Humana $19 million in interim payments before obtaining written legal
concurrence from the Assistant General Counsel. Paragraph 1.601-90(4) of the
TRICARE Acquisition Manual, January 2001, requires a legal review prior to
executing contract modifications exceeding $500,000, which the modifications for
providing interim payments to Humana and TriWest did. Although the Assistant
General Counsel subsequently agreed with the contracting officer’s entitlement
determination, the contracting officer exposed the Government to significant financial



                                    5
risk by making the determination and paying out millions of dollars in interim
payments before obtaining legal concurrence.

Board of Review. The contracting officer did not obtain approval from the Board of
Review on the Humana and TriWest contract modifications as TRICARE procedures
required. A Board of Review comprising key senior TRICARE contracting officials
was convened periodically to provide management oversight of all significant
contract actions. It served to ensure that significant contract actions complied with
applicable laws and regulations and that all documents necessary to fully support the
amount of the award were prepared. In requesting Board of Review approval, the
contracting officer was required to prepare a package of documents, including the
negotiation memorandum, that were necessary to fully support the action. A Board of
Review of the Humana and TriWest equitable adjustments would have prevented the
contracting officer from issuing the equitable adjustments without having negotiation
memorandums in the contract files. TRICARE should have controls in place that
preclude contracting officers from executing actions without obtaining the required
oversight reviews.

DCAA Request for Negotiation Memorandum. FAR 15.406-3(b) required that
the contracting officer furnish a copy of the Humana and TriWest negotiation
memorandums to DCAA. The contracting officer told us that DCAA requested a
copy of the memorandums shortly after he executed the Humana contract
modification in February 2001. The contracting officer stated that he first realized
that a negotiation memorandum was not in the contract file when DCAA requested a
copy of it. The contracting officer said he intentionally ignored the DCAA request, in
part because of advice he received from his supervisor, the Director of Acquisition
Management and Support. The Director of Acquisition Management and Support
denies being told about the missing negotiation memorandums and denies providing
such advice.




                                    6
Recommendations and Management Comments
Recommendations.              We recommend that the Director, Acquisition Management
and Support Division:

        1.     Review contract modifications greater than $500,000 that were executed in
the last 3 years by the Office Chief and his team to determine whether the contract files
include a negotiation memorandum that complies with the requirements of Federal
Acquisition Regulation 15.406-3 and DoD Directive 7640.2.

       2.      Review the current management controls for ensuring that, before executing
a pricing action, the TRICARE contracting officer includes in the contract file the required
reviews and approvals and explanations for deviating from any field pricing
recommendations.

     3.    Take appropriate corrective actions based on the results of
Recommendations 1. and 2. to:

             a.     Reinforce to the Office Chief and his team the importance of
preparing negotiation memorandums.

             b.     Improve the management controls for obtaining the required reviews
and approvals and for explaining any deviation from field pricing findings and
recommendations.

       4.      Provide the results of Recommendations 1. through 3. to the DoD Office of
the Assistant Inspector General for Audit Policy and Oversight.


          Management Comments. The Deputy Director, TRICARE Management Activity
          concurred to the recommendations. TRICARE is conducting a review of contract
          modifications, providing updated training on negotiation memorandums, and ensuring
          that all policies and procedures are adequate. TRICARE anticipates completing the
          actions by November 30, 2007.




                                             7
Appendix A. Scope and Methodology
We evaluated records maintained by TRICARE in Aurora, Colorado, to determine the validity of
the Hotline allegations. With assistance from the Defense Criminal Investigative Service, we
interviewed current and former TRICARE managers and employees at Aurora. Specifically, we

       •   determined the applicable standards, public law, DoD regulations, directives, and
           instructions;

       •   reviewed TRICARE contract files related to the Humana and TriWest REAs,
           prepared in both hard copy and electronic format;

       •   interviewed current and former TRICARE employees and managers having direct
           involvement with the Humana and TriWest REAs or the TRICARE contract audit
           follow-up system; and

       •   obtained supporting documentation from the DCAA Financial Liaison Auditor
           assigned to the TRICARE Aurora, Colorado, facility.

We performed this review from July 2005 through June 2007. We suspended the project for 1
year within this timeframe to address other projects.

        Use of Computer-Processed Data. We did not rely on any computer-processed data
as part of our review. TRICARE uses a Web-based eTools system that maintains data on the
status of actions taken to resolve contract audit report findings and recommendations. However,
we verified the eTools data used in our review to source documents.

        Prior Coverage. In the last 5 years, DoD IG issued one other report involving
TRICARE’s actions on DCAA audit reports. DoD IG Report No. D-2007-6-002, “Hotline
Allegations Concerning the TRICARE Contract Award for the Audit of Capital and Direct
Medical Education Costs,” October 11, 2006, reported that TRICARE’s award of a contract to
Tichenor and Associates, Inc., did not comply with portions of the FAR. In addition, the
incentive fee terms under the contract did not properly consider the overpayments that DCAA
identified, resulting in Tichenor and Associates, LLP receiving additional incentive fees of up to
$4.7 million. Among the recommendations, TRICARE agreed to require the approval of
documentation supporting the disposition of audit reports.




                                                8
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Defense Procurement and Acquisition Policy

Department of the Army
Inspector General, Department of the Army

Department of the Navy
Naval Inspector General

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)

Other Defense Organizations
Director, TRICARE Management Activity
   Chief of Healthcare Plan Operations
   Director, Acquisition Management and Support Division
Director, Defense Contract Audit Agency
   Branch Manager, Defense Contract Audit Agency, Chesapeake Bay Branch Office
   Financial Liaison Auditor, TRICARE Management Activity (Contracts), Aurora

Congressional Committees and Subcommittees, Chairman and
Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
   Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
   Committee on Oversight and Government Reform




                                              9
Deputy Director TRICARE Management Activity
Comments




                       10
